                                 --
                                   NATIONAL SCIENCE FOUNDATIOlv
                                     WASHINGTON, D.C. 20550




          Office of
.     Inspector General



     MEMORANDUM
                 DATE:      March 3, 1994

    .- -- - -
                 FROM :
                    - --
                ..
                                                      . ---   -     _      ~




                     VIA:


                      TO:   Case No. I92120029

     On September 11, 1992, we were contacted b                of NSF1s
     Office of the General Counsel.              tate          had been
     contacted by the                  Attorney General's office, which
     was
     former
         investigating
            em loyee ofthe

    P
                                     Educational

     Mr. -allegedly    had                 proposals, listing himself as
     Principal Investigator,                 company, the
                                      , while at the same
                                      tTer as a grant
                                      1-9252979 to th
                                     for employment w
                                         funds secured by
     private company rightfully belonged to th
          perly copyrighted intellectual                            that



                                             e
          and others may have exhibited

    The Attorney General s office        ested copies of any grant
    proposals submitted to NSF by            which we provided. They
    stated that prosecution of Mr      regarding the above matters was
    pending, the status of which they would keep us informed.
    We reviewed the grant proposals submitted to NSF by Mr. ,      and
    found that he correctly stated his employment. status in. the
    proposals. We found no false statements
    the proposals. On February 28, 1994, the
    General's office informed us th t prosecution of          had been
    discontinued, as they and        believed there were insufficient
grounds for pursuing the matter.     As we found no evidence of
wrongdoing, further investigation is unwarranted.
This case is closed.
